Supreme Court, U.S.
FILED

AUG 3 1 2021
OFFICE OF THE CLFRK

IN THE
SUPREME COURT OF THE UNITED STATES

RONALD L. WEBSTER— PETITIONER
VS.

SCOTT DAUFFENBACH. Warden, and PHILIP J. WEISER. Attorney
General of the State of Colorado— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Tenth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR
CASE) PETITION FOR WRIT OF CERTIORARI

Ronald L. Webster (CDOC#52775)
(Your Name)
Fremont Correctional Facility (FCF)
(Address)
Canon Citv. CO 81215
(City, State, Zip Code)

RECESVED
SEP - 9 2021

1

OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTION(S) PRESENTED
Whether the United States Court of Appeals Erred by failing to Issue a Certificate
of Appealability (COA) Pursuant to 28 U.S.C. § 2253(c)(1)(A), because Webster can
show both "that jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason would
find it debatable whether the district court was correct in its procedural ruling."
LIST OF PARTIES Slack v. McDaniel, 529 U.S. 473, 484 (2000). Mr. Webster
answers in the affirmative.

[ X ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

2

TABLE OF CONTENTS
OPINIONS BELOW

5

JURISDICTION

6

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

7

STATEMENT OF THE CASE

$9,10

REASONS FOR GRANTING THE WRIT CONCLUSION
PROOF OF SERVICE

11, 12, 13
16

INDEX TO APPENDICES

APPENDIX A
Tenth Circuit Opinion

APPENDIX B
United States District Court Order

3

TABLE OF AUTHORITIES CITED
CASES

Overton v. United
States, 925 F.2d
1282, 1284 (10th
Cir. 1991)

Slack v. McDaniel, 529
U.S. 473, 484 (2000)

Haines v. Kerner,
404 U.S. 519
(1972)

Webster v. Dauffenbach,
2021 U.S. App. LEXIS
15073
Webster v.
Dauffenbaugh,
2021 U.S. Dist. LEXIS
97569

STATUTES AND
RULES

Hughes v. Rowe, 449
U.S. 5, 9 (1980)
Cruz v. Beto, 405 U.S.
319 (1972)

28 U.S.C. § 2253
28 U.S.C. § 2244
28 U.S.C. § 2254

Barnett v. Hargett, 174
F.3d 1128 (10th Cir.
1999)
Coleman v. Thompson,
501 U.S. 722, 749-50
(1991).
Martinez v. Ryan, 566
U.S. 1, 17 (2012)
Hall v. Bellmon, 935
F.2d 1106, 1110 n.3
(10th Cir. 1991)
Small v. Endicott, 998
F.2d 411 (7th Cir. 1993)

4

IN THE
SUPREME COURT OF THE UNITED
STATES PETITION FOR WRIT OF
CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A to the
petition and is
t 1 reported at Webster v. Dauffenbach, 2021 U.S. App. LEXIS
150731 or, [ ] has been designated for publication but is not yet
reported; or, [X] is unpublished.
The opinion of the United States district court appears at Appendix B to the
petition and is
[ ] reported at Webster v. Dauffenbaugh, 2021 U.S. Dist. LEXIS
97569; or, [ ] has been designated for publication but is not yet
reported; or, [X] is unpublished.

5

JURISDICTION
[ X] For cases from federal courtsThe date on which the United States Court of Appeals decided my case
was May 20, 2021.
[X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date- July 7, 2021, and a copy of the order denying
rehearing is unavailable due to the fact that the Tenth Circuit did not register
its filing.

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(l).

6

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
At issue is whether the Tenth Circuit should have issued a COA
pursuant to 28 U.S.C. § 2253(c)(1)(A), with respect to an application of a
procedural bar in a federal habeas action, precluding review of claims not
properly raised in the state courts due to their failure to construe Webster’s
pro se postconviction pleadings in a liberal manner..

7

STATEMENT OF THE CASE
Petitioner was arrested and charged for alleged sexual and drug-related
offenses involving two teenage girls. He was accused of having engaged in
sexual activity with the girls in exchanged for providing them with drugs. A
jury found him guilty of one count of sexual assault on a child pattern of abuse,
one count sexual assault on a child, two counts of contributing to the
delinquency of a minor, and one count of distributing of a controlled substance.
The trial court sentenced him to an aggravated term of twenty-four years to
life in the Colorado Department of Corrections.
On direct-appeal before the Colorado Court of Appeals (CCA), Webster’s
conviction and sentence was affirmed, People v. Webster, (Colo. App.
No.llCA2278, Aug 14, 2014) (not published pursuant to C.A.R.35(f). The
Colorado Supreme Court (CSC) denied his petition for a writ of certiorari on
March 23, 2015.
On August 12, 2015, Webster filed a State Post-Conviction Motion
(SPCM) in accordance with Colo. R. Crim. Proc. Rule 35(c). The petition was
characterized as voluminous, both multi-layered and generalizing with respect
to the assignment of alleged errors, i.e., trial court, trial and appellate counsel.
Webster alleged actual innocence also as a basis for reversing his conviction.
On December 31, 2015, the State Post-Conviction Court (SPCC), issued
an Order summarily dismissing the SPCM, based on its “distilling” the
substance into several indistinct claims, as well as rejecting several on
procedural grounds. Webster did not seek a reconsideration of the Order as the
habeas court indicated he should have though he did appeal.
On appeal, the CCA refused to address these issues not specifically
headed as “ineffective appellate counsel” claims, suggesting that Webster
should be held to a higher standard, and that it would be improper to construe
his SPCM broadly (Webster, No. 16CA0808). The CCA did not cite to Haines v.
Kerner, 404 U.S. 519 (1972). In fact the CCA faulted Webster by insinuating
that he abandoned the issue:
“At no time prior to filing his notice of appeal did Webster advise the
postconviction court that it had misconstrued his LAC claims against his
appellate counsel because he did not know he did until the COA ruling.
Because Webster is not an attorney he did not have the knowledge that
he could ask the State Court to reconsider its ruling accordingly. As a
result, the postconviction court was not given an opportunity to consider
whether appellate counsel was ineffective for the reasons Webster now
raises.”
8

Webster, No. 16CA0808 at 8.
The Colorado supreme court denied the petition for a writ of certiorari
on June 3, 2019.
On December 9, 2019 Webster filed the 28 U.S.C. § 2254 Application
asserting the following claims with subparts*
(l) Claim l(a)-Ineffective assistance of trial counsel for failure to
obtain DNA and child forensic interviewing experts, and for
not objecting to providing the jury with an audiotape interview
(failure by counsel to obtain DNA and child forensic
interviewing experts)?
(b) Ineffective assistance of appellate counsel by failing to
raise the issues of DNA confrontation violation; admission
of res gestae evidence; and allowing the jury unfettered and
unsupervised access to an audiotape interview during
deliberations.
(2) Claim 2(a)-Trial court error by giving improper responses to
jury questions that suggested the jury was having trouble
reaching a unanimous verdict and was deadlocked, in violation
of due process, a fair trial, and the right to an impartial jury;
and
(b)-Ineffective assistance of trial counsel based on the trial
court error set forth in claims 2(a).
On December 11, 2019, the U.S. District Judge directed Respondents to
file a Pre-Answer Response and to address the affirmative defenses of
timeliness under 28 U.S.C. § 2244(d), and exhaustion of state court remedies
under 28 U.S.C. § 2254(b)(1)(A). Respondents filed a Pre-Answer Response on
January 29, 2020. Webster filed a Reply on March 27, 2020.
The Habeas court reviewed the Pre-Answer Response and the Reply and
filed an Order for Answer in part on June 22, 2020. In the June 22 Order, the
Court dismissed Claim 1(b) with prejudice as procedurally defaulted in State
Court and barred from federal habeas review. The Court found that Claims
1(a) and 2(a) are exhausted and instructed Respondents they may include
additional arguments concerning the merits of Claim 2(b) in the Answer. Id.
Respondents were directed to file an answer in compliance with Rule 5 of the
Rules Governing Section 2254 Cases that fully addresses the merits of the
remaining claims. On August 21, 2020, Respondents filed an Answer. In fact,
the Habeas Court mischaracterized the nature of the claims it would consider,
9

by addressing the claims the applicant had contended were errors the
appellate attorney committed by not raising them on direct*appeal, of which
both the SPCC and CCA faulted Webster for not presenting them squarely in
the 35(c) petition. It should be noted that Webster’s trial attorney, Martin
Stuart, Esq., submitted an Memo (see Exhibit A), which detailed the issues for
consideration on direct-appeal, though it was obvious that the appellate
attorney completely overlooked this Memo by selecting only one single issue,
which was highly dubious of its merit. Webster emphasized that because of
this omission, that his SPCM was effectively a substitution for his directappeal. This was an explicit rationale for consideration of the claims of error,
resulting in his wrongful conviction.
However, it was construed that the claims were inappositely contended
against the trial attorney when the trial attorney preserved those issues in
trial by objecting to them which caused the Respondents to seek an order of
clarification, in which they “did not intend to concede that such claims against
trial counsel are exhausted.” Additionally, the Respondents went further by
“respectfully requesting] an order of clarification allowing Respondents an
opportunity to respond to the claims as interpreted by the court that was never
done.” See Answer at 5, 6, and 7.
Despite this apparent confusion, and according to Webster and his
records, he has never received any such order of clarification by the Habeas
Court, nor a follow up by the Respondents. It is likely this issue was ignored
causing Webster to miss his opportunity to respond to that at order.
Nonetheless, on January 4, 2021, Applicant filed a pleading titled, ’’Narrative
Summary of the Evidence," which addresses the credibility of the DNA
evidence ghost hearing that he appeared at that has been said it never
happened in the morning of July 8, 2011.
Thereafter, the habeas court reviewed the Application, the Answer, the
state court record, and the January 4, 2021, pleading, determining that the
Application can be resolved on the parties’ briefing without an evidentiary
hearing. On January 19, 2021, the habeas court issued an Order that the
Application for a Writ of Habeas Corpus Pursuant to 28 U.S.C.' 2254, is
dismissed with prejudice. Further Ordering that the issuance of a Certificate of
Appealability pursuant to 28 U.S.C. § 2253(c) is denied.
Thereafter, Webster immediately filed a pleading marked as “Motion for
Post-Judgment Relief’ contending that the habeas court committed clear error
for having dismissed Claim 1(b) as procedurally defaulted, and that the habeas
court should have construed whether this claim was properly presented in the
SPCM, and thus satisfying the fair presentation requirement. On February
16, 2021, the habeas court issued an Order denying Webster’s post-judgment
motion, reasoning, principally, that Claim 1(b) was dismissed because it was
10

not raised in the SPCM before the state district court and, therefore, it was not
properly exhausted and is now procedurally defaulted in state court. Webster
has contended all along that he did in fact raise the claim 1(b), albeit in a
haphazardly manner, and that had either the state courts or habeas court
construed it liberally, vis a vis the Haines Rule, so aptly named for the seminal
decision that this Court unanimously held in Haines v. Kerner, 404 U.S. 519
(1972), that a pro se complaint, "however inartfully pleaded," must be held to
"less stringent standards than formal pleadings drafted by lawyers" and can
only be dismissed for failure to state a claim if it appears "beyond doubt that
the plaintiff can prove no set of facts in support of his claim which would
entitle him to relief." Id., at 520-521, quoting Conley v. Gibson, 355 U.S. 41, 4546 (1957). While this holding directly applied to whether a civil complaint
states a cognizable § 1983 claim, Webster now asks this Court to mandate that
the Colorado district and appellate court must apply the Haines Rule when
considering pro se postconviction pleadings, since had they done so here,
Webster’s habeas claim 1(b) should have considered on its merit.
On April 7, 2021, Webster filed his "Combined Opening Brief and
Application for a Certificate of Appealability" of which the Tenth Circuit issued
an Opinion on May 20, 2021, denying the request for a COA, and thereby
dismissing the matter. Webster promptly filed a Petition for rehearing, which
was denied July 7, 2021. The instant petition now follows.

ll

REASONS FOR GRANTING THE PETITION
There exists the need for guidance from this Court to set-forth, with
respect to particular clarity, that the state district and appellate courts
assessing postconviction pleadings filed by pro se litigants be construed
liberally, thereby applying the Haines Rule, as well to the lower federal habeas
court’s review of Webster’s pro se filings in state court. Because the Haines
Rule is often applied in civil actions, there is no mandate from this Court that
the State of Colorado apply the Haines Rule when assessing pro se
postconviction relief pleadings, of which must be construed broadly.
Specifically, whether Webster’s pro se state court filings should have
been construed in a liberal manner, so as to accord him substance over form,
thereby demonstrating that jurists of reason would in fact have found it
debatable that he properly raised his federal habeas claims before the state
courts for purposes of fair presentation and exhaustion, thus alleviating him of
the procedural bar imposed against him.
The issue here concerns whether the Order, dated January 19, 2021,
finding that habeas claim 1(b), which contains three points of contention, i.e.,
DNA confrontation Clause violation, inadmissible res gestea evidence, and
impermissible use of audiotape, were procedurally barred, was proper, and;
whether Webster properly demonstrated cause and prejudice for his procedural
default. See Coleman v. Thompson, 501 U.S. 722, 749*50 (1991).
Here, the issue turns on whether, after a careful reading of his poor
syntax and sentence construction and or his unfamiliarity with pleading
requirements may have been missing an important element that may not have
occurred to him in his 35(c) motion. Webster did in fact raise the issue of
ineffective assistance of appellate counsel for only raising one claim in his
direct appeal and failing to raise all the other claims, as raised on the appeal of
the denial of the postconviction motion. The habeas court laid blame on trial
counsel ineffectiveness, though it was incorrect, given that the appellate
lawyer was to blame. What added to this confusion, was the fact that the
habeas court misapplied the context of the claim as indicated by the
Respondents- “the explanation of claims in the [habeas] order to answer
appears to differ slightly from the claims as explained in the petition and in
Respondent’s pre-answer response. Specifically, the order’s description of claim
1(a) includes a claim of ineffective assistance of trial counsel based on a failure
to ‘raise the issues of DNA confrontation violation, res gestae evidence, and
jury access to an audiotape interview.’” As such, the Respondents correctly
pointed out that the DNA confrontation violation and res gestae evidence*was
asserted only as representing ineffectiveness by appellate counsel”.Answer at p
4. The significance of the mischaracterization by the habeas court when
reviewing the petition, is that audio tape interview claim was considered under
12

Martinez v. Ryan, 566 U.S. 1, 17 (2012), but not the DNA confrontation and res
gestae claims. That is these three issues are part and parcel of the ineffective
assistance of appellate counsel issue Webster had asserted first in his SPSM,
of which the SPCC rejected based on the fact that he failed to include the
claims as ineffective assistance of counsel, and again more succinctly on the
SPCC’s order denying his SPCM. The CCA simply faulted him for not squarely
asserting the three claims under the heading of “ineffective assistance of
appellate counsel.” However, pertinent here, is the fact that Webster did in fact
assert that appellate counsel was ineffective, but no court has ever actually
applied the Haines Rule, with respect to construing the petition in a liberal
manner, and thus, the Tenth Circuit was in err by not considering whether
jurists of reason would find it debatable that Webster’s SPCM (when construed
liberally) did in fact properly assert the procedurally defaulted claims.
Thus, Webster argues that his pro se postconviction motion should have
been held to a less stringent standard than those drafted by attorneys, and a
federal habeas court must consider Webster’s argument that his SPCM
required a liberal construance. See Hughes v. Rowe, 449 U.S. 5, 9 (1980); and
Cruz v. Beto, 405 U.S. 319 (1972). Therefore, Webster’s habeas action should
not have been dismissed on that front.
Even under this less stringent standard, however, the pro se SPCM
nonetheless may be subject to summary dismissal. The mandated liberal
construction afforded to pro se pleadings means “that if the court can
reasonably read the pleadings to state a valid claim on which [Webster] could
prevail, it should do so", but a district court may not rewrite a petition to
include claims that were never presented. Barnett v. Hargett, 174 F.3d 1128
(10th Cir. 1999). Likewise, a court may not construct Webster's legal
arguments for him, Small v. Endicott, 998 F.2d 411 (7th Cir. 1993), or "conjure
up questions never squarely presented" to the court. Beaudett v. City of
Hampton, 775 F.2d 1274, 1278 (4th Cir. 1985), cert, denied, 475 U.S. 1088, 106
S. Ct. 1475, 89 L. Ed. 2d 729 (1986). Webster contends, however, that all that
was required is a liberal reading, which would have shown that he did in fact
present the claim, squarely.
The Tenth Circuit Judge Logan, “believe [d] that this rule means that if
the court can reasonably read the pleadings to state a valid claim on which the
plaintiff could prevail, it should do so despite the plaintiffs failure to cite
proper legal authority, “his confusion” of various legal theories, his poor syntax
and sentence construction, or his unfamiliarity with pleading requirements.”
Hall v. Bellmon, 935 F.2d 1106, 1110 n.3 (10th Cir. 1991) (The Haines rule
applies to involving a pro se litigant, including all proceedings § 1915(d) and
summary judgment proceedings. See, e.g., Overton v. United States, 925 F.2d
1282, 1284 (10th Cir. 1991) (liberally construing pro se pleadings in review of
summary judgment). However, there is nothing to suggest that a habeas court
13

should apply the so-called Haines Rule, when reviewing a pro se SPCM. Hence
the need for this Supreme Court to set-forth proper guidance, since the state
district and appellate court, federal habeas court and the Tenth Circuit have
completely ignored it.
There “has not been one court” amid this entire postconviction and
appellate process that has allowed Webster the opportunity to correct or
amend his deficiency in his pro se SPCM. The claim 1(b), which alleges an
error of a constitutional magnitude, it would be a miscarriage of justice not to
allow them to be reviewed for their merits because Mr. Webster would be
granted a new trial. Webster understands the courts are not an advocate of a
pro se litigant and does not expect them to be, all Webster is asking for is a fair
process with his pleadings to be liberally construed and not held to a skilled
trained attorney standard. Thus, this Court must intervene by extraordinary
edict, mandating that the State District and Appellate Courts, as well as the
lower Federal habeas court, to allow a pro se applicant to correct a deficiency
while applying the Haines Rule when assessing pro se postconviction
pleadings. It would be a travesty and a miscarriage of justice to allow an
innocent person to be in prison for a constitutional violation that was not
reviewed because of an error in their pleadings. So help me GOD!

14

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date- August 31, 2021

15

